7

supaoe  € SOCKLE sate

Legal Briefs

Omaha, Nebraska 68102-1214 Bietgzi contact@cocklelegalbriefs.com
1-800-225-6964 . Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850

No. 20-138

DONALD J. TRUMP,
PRESIDENT OF THE UNITED STATES, et al.,
Petitioners,
Vv.
SIERRA CLUB, et al.,
Respondents.
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICUS
CURIAE LANDMARK LEGAL FOUNDATION IN SUPPORT OF PETITIONERS in the above
entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
ptepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 3453 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 15th day of December, 2020.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

pv GENERAL NOTARY Slate of Nebraska ) / & CALL
RENEE J. GOSS 9. fi
My Comm. Exp. September 5, 2023

ome Notary Public Affiant

  
 

 

 

40380
